<html>
<title> - AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
           AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2011

=======================================================================

                                (111-93)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 4, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
55-275                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1c0b143b180e080f131e170b5518141655">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland Vice      Carolina
Chair                                TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ROBERT E. LATTA, Ohio
MICHAEL E. CAPUANO, Massachusetts    ANH ``JOSEPH'' CAO, Louisiana
GRACE F. NAPOLITANO, California      PETE OLSON, Texas
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
BOB FILNER, California
CORRINE BROWN, Florida
JOHN GARAMENDI, California
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Darcy, Hon. Jo-Ellen, Assistant Secretary for the Army for Civil 
  Works, United States Army Corps of Engineers...................     5
Perciasepe, Robert, Deputy Administrator, United States 
  Environmental Protection Agency................................     5
Van Antwerp, Lieutenant General Robert, Chief of Engineers, U.S. 
  Army Corps of Engineers........................................     5

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Mitchell, Hon. Harry, of Arizona.................................    26

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Darcy, Hon. Jo-Ellen.............................................    27
Perciasepe, Robert...............................................    33
Van Antwerp, Lieutenant General Robert...........................    58

                       SUBMISSION FOR THE RECORD

Perciasepe, Robert, Deputy Administrator, United States 
  Environmental Protection Agency:...............................
      Response to request for information from Hon. Boozman, a 
        Representative in Congress from the State of Arkansas....    47
      Response to request for information from Hon. Johnson, a 
        Representative in Congress from the State of Texas.......    51
      Response to request for information from Hon. Napolitano, a 
        Representative in Congress from the State of California..    00
Van Antwerp, Lieutenant General Robert, Chief of Engineers, U.S. 
  Army Corps of Engineers, response to request for information 
  from the Subcommittee..........................................    63

                        ADDITIONS TO THE RECORD

Agency for Toxic Substances and Disease Registry and National 
  Center for Environmental Health Centers for Disease Control 
  Prevention, U.S. Department of Health and Human Services, Henry 
  Falk, M.D., M.P.H, Acting Director, written testimony..........    73
International Boundary and Water Commission, U.S. and Mexico, 
  Edward Drusina, U.S. Commissioner, written testimony...........    85
National Oceanic and Atmospheric Administration, U.S. Department 
  of Commerce, David Kennedy, Acting Administrator for Ocean 
  Services, written testimony....................................    87
Natural Resources Conservation Service, U.S. Department of 
  Agriculture, David White, Chief, written testimony.............    98
Saint Lawerence Seaway Development Corporation, Collister 
  Johnson, Jr., Administrator, written testimony.................   105
Tennesee Valley Authority, Tom Kilgore, President and Chief 
  Executive Officer, written testimony...........................   121

[GRAPHIC] [TIFF OMITTED] T5275.001

[GRAPHIC] [TIFF OMITTED] T5275.002

[GRAPHIC] [TIFF OMITTED] T5275.003

[GRAPHIC] [TIFF OMITTED] T5275.004

[GRAPHIC] [TIFF OMITTED] T5275.005

[GRAPHIC] [TIFF OMITTED] T5275.006

[GRAPHIC] [TIFF OMITTED] T5275.007

[GRAPHIC] [TIFF OMITTED] T5275.008

[GRAPHIC] [TIFF OMITTED] T5275.009

[GRAPHIC] [TIFF OMITTED] T5275.010

[GRAPHIC] [TIFF OMITTED] T5275.011

[GRAPHIC] [TIFF OMITTED] T5275.012

[GRAPHIC] [TIFF OMITTED] T5275.013

[GRAPHIC] [TIFF OMITTED] T5275.014

[GRAPHIC] [TIFF OMITTED] T5275.015

[GRAPHIC] [TIFF OMITTED] T5275.016



           AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2011

                              ----------                              


                        Thursday, March 4, 2010

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2167, Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairman of the Subcommittee] presiding.
    Ms. Johnson. The committee will come to order.
    Good morning and welcome. Today's hearing is on the Fiscal 
Year 2011 Budget and Priorities of Agencies under the 
jurisdiction of the Subcommittee.
    At today's hearing, the Subcommittee will receive oral 
testimony--I am sorry, my voice is not quite up to par.
    At today's hearing, the Subcommittee will receive oral 
testimony from the Environmental Protection Agency and the Army 
Corps of Engineers. The Subcommittee has asked for written 
testimony for each of the other Federal agencies under the 
jurisdiction of this Committee and that should be included in 
each Member package.
    Just a couple of years ago, the budget request of the 
previous administration was not adequate to meet the Nation's 
needs. Today's message is much more optimistic, at least with 
respect to investing in the Nation's growing wastewater 
infrastructure needs, and the commitment to clean, safe and 
secure water for all Americans. For the Environmental 
Protection Agency, the President's fiscal year 2011 request is 
$10 billion, which is consistent with last year's request and 
continues the presidential commitment to restoring and 
protecting the Nation's environment.
    Similarly, the administration's request for the clean water 
State revolving fund is $2 billion, consistent with last year's 
request that was well above the previous administration's 
request and that renewed the Federal commitment to meeting the 
Nation's growing wastewater infrastructure needs.
    So once again, the administration needs to be commended for 
producing a budget that, for the most part, restores the 
prospect of a cleaner, more sustainable future.
    However, there are certain budget areas that could still 
undergo some improvement. For example, the fiscal year 2011 
budget request for the Army Corps of Engineers was 
approximately 9 percent below the appropriated levels of the 
agency in fiscal year 2010. My greatest disappointment in the 
Corps's budget request is the investigations and construction 
accounts which are respectfully 35 percent and almost 17 
percent below last year's appropriated levels. For the 
investigations account this disappointment stems from a concern 
that at the requested amount, the Corps of Engineers would be 
able to plan and design the next generation of projects within 
its core mission of environmental restoration, flood damage 
reduction and navigation.
    In fact, the President's budget requests funding for no new 
specific studies, and for no new programmatic studies. In 
addition, if enacted at the levels proposed, the fiscal year 
2011 investigations budget could have a negative effect on 
staffing levels of the Corps' district offices because the 
salaries of Corps employees are paid from the project funds, 
and in part, from funds for project studies.
    In addition, the need for new projects is increasing and it 
is critical to maintain and enhance the capability of the 
Corps's planning mission. Both for the civil works program and 
for its military competency for the construction account I am 
disappointed that the budget only requests $1.7 billion for the 
construction of vital Corps projects. I am equally disappointed 
that the budget only requests funding for two new starts that 
were authorized in the Water Resources Development Act of 2007. 
That monumental piece of legislation authorized a myriad of 
projects across the varied missions of the Corps which are 
vitally important to local community needs.
    However, for the most part, these authorized projects were 
again passed over for funding in this budget request. Also the 
budget request for the Corps shows a decrease of $39 million in 
the operations and maintenance of the Corps' projects and 
facilities. These funds are necessary for the preservation, 
operation, maintenance and care of existing navigation, flood 
damage reduction and environmental restoration projects. As I 
look at the EPA Superfund program, the administration's request 
is a slight decrease in funding for the program. However, EPA 
is increasing its estimated number of Superfund construction 
complete sites for fiscal year 2011. This is a welcomed 
increase in the pace of clean up and I hope this trend 
continues.
    I would gather that EPA would be able to further increase 
these cleanup numbers if there was more available funding for 
this program in the future. EPA seems to be working to reverse 
the past few years of slowdown in the Superfund pipeline of 
moving cleanups from the investigation phase to the design 
phase, to the implementation of effective clean up plans. To 
that end, I am pleased that the administration has, once again, 
called for the reinstatement of the taxes on petroleum chemical 
feed stocks and corporate income that traditionally funded 
clean ups under the Superfund program. This effort, which was 
abandoned under the last administration, should allow for an 
increase in the number and pace of cleanups and a return to the 
goal of polluter pays.
    On a positive note, the administration requested an 
increase of $40 million over last year's appropriations for 
brownfields. This up in funding will better enable the Federal 
Government, States, and communities to work together to address 
cleanup and reuse brownfield sites. I am pleased that the 
Natural Resources Conservation Service, the Saint Lawrence 
Seaway Development Corporation, the National Oceanic and 
Atmospheric Administration, the International Boundary and 
Water Commission, the Agency for Toxic Substance and Disease 
Registry, and the Tennessee Valley Authority were able to 
provide written testimony for the hearing this morning. Like 
EPA and the Corps, the budgets of these agencies have points of 
praise and points of criticism.
    I commit to continued oversight of all of the budget 
requests for the agencies under the jurisdiction of this 
Subcommittee, and I welcome each of the witnesses here this 
morning.
    And now I will yield to my distinguished Ranking Member of 
the Subcommittee, Mr. Boozman, for any comments he may have.
    Mr. Boozman. Thank you so much, Madam Chair, and we 
appreciate your leadership.
    Today we will hear from two agencies whose work falls 
within the jurisdiction of our Subcommittee, the Army Corps of 
Engineers and the Environmental Protection Agency. Let me begin 
by saying that I support efforts to control Federal spending. 
However, these are important programs that benefit our economy 
and improve the quality of life of our citizens. While I agree 
we must be diligent in our oversight of these agencies to be 
sure that programs are run effectively and efficiently, I do 
not support cutting programs or flat funding programs that have 
a proven record of providing economic benefits.
    It is inevitable that the administration's priorities and 
congressional priorities will not always coincide. For 
instance, once again the administration's proposing to 
reinstate the Superfund taxes. These punitive Superfund taxes 
unfairly penalize those who are not responsible for pollution 
at the Superfund sites. Under this proposal the Superfund taxes 
would be levied on many companies and industries such as 
financial, insurance, real estate, retail and wholesale trade 
and service businesses that have absolutely no connection to a 
Superfund site or to any environmental cleanup.
    Superfund should remain the cost recovery statute, not a 
putative one on those who fuel the Nation's economic engine.
    Cost recovery advances the polluter pays principle while 
not injuring innocent businesses, shifting the burden to those 
who had no part in the contamination is simply unfair and 
unwarranted. For nearly two centuries, the Civil Works Missions 
of the Corps have contributed to the economic vitality of the 
Nation and have improved the quality of our life. At the same 
time, the Civil Works side of the Corps represents an 
experienced engineering workforce that can be quickly mobilized 
to address a national defense threat or a national disaster. 
Yet the fiscal year 2011 budget request from the administration 
for the Corps of Engineers is less than the fiscal year 2010 
request and well below what was enacted in 2010.
    Given the fact that the navigation projects and the flood 
damage reduction projects provide the economic benefits to the 
Nation, I would like to see the administration play a higher 
priority in the Corps's work. All the Corps projects put people 
to work, which is another reason to put the investments high on 
the priority list. Investing in flood damage reduction projects 
the protects people in businesses in cities and towns all 
across the Nation. It makes good economic sense to protect 
existing development rather than have to pay for the losses and 
clean up that comes from hurricanes or floods. Every one dollar 
invested in flood damage reduction provides protection for more 
than $6 worth of infrastructure.
    In the global economy the Nation's farmers and businesses 
must compete with their counterparts overseas for customers all 
over the world. The importance of modern waterways and ports 
has never been more critical to the Nation's economic well-
being as it is right now. If we follow the administration's 
leads projects will take longer to complete, cost more and have 
the benefits delayed. There is very little change from previous 
budget requests for the corps's operation and maintenance 
account.
    After many years of inadequate funding resulting in 
deferred maintenance the funding level is still too low. The 
chronic problem of deferred maintenance is impacting the 
navigability for many of our water ways and causing ships to 
enter and leave certain ports only partially loaded or in some 
cases divert to foreign ports. This has a huge impact on the 
reliability of this important mode of transportation. And I 
believe the President's budget puts the Nations at a 
competitive disadvantage. I thank all of our witnesses for 
being here and I look forward to your testimony. And with that 
I yield back, Madam Chair.
    Ms. Johnson. The Chair recognizes Representative Cao.
    Mr. Cao. Thank you, Madam Chair. And first of all, I just 
want to thank you and I would like to thank the Ranking Member 
for holding this very important hearing. The city of New 
Orleans as well as the whole second congressional district are 
very much dependent on the many projects that are being 
conducted by the Army Corps as well as the EPA. And I have 
discussed many times in this Committee as well as the 
Subcommittee that 4-1/2 years after Hurricane Katrina, we are 
still rebuilding and we are still struggling to ensure that the 
people of New Orleans, as well as the second congressional 
district get the necessary hurricane protections that they 
need.
    In our recovery, we also have encountered many other 
environmental obstacles. Toxic mold continues to affect my 
constituents' health and has prevented many from returning to 
their home. We are dealing with Chinese drywall which was used 
in the rebuilding process and which is now literally eating my 
constituents houses from the inside out to say nothing of the 
health issues it is causing. In both of these cases, the true 
sum of the effects is still being learned and it is very 
concerning to me.
    Another environmental consideration that affects my 
district is coastal restoration with the failures of the 
levees, wetland reconstruction. Our first line of defense, all 
of these projects have been damaged over the years by coastal 
erosion and salt water intrusion. And we must continue with 
strong programs to ensure the health of these complex networks.
    As I stated yesterday, the recovery of New Orleans very 
much depends on the infrastructure that are under the Army 
Corps of Engineers. And today, I just want to continue our 
discussion from yesterday. And I would like to touch on a 
number of issues, one is the eastern surge protection barrier 
to the western surge protection barrier in the area of Algiers 
and Harvey Canal. Projects relating to the Mississippi River 
Gulf Outlet, or MRGO, including the reaches 144, 146 and 148 
which are slated for T walls.
    The T walls on the Harvey Canal affecting all the levees on 
the lakefront and in the New Orleans areas. I also would like 
to continue our discussion of the Inner Harbor Navigation Canal 
Lock as well as the outfall canals.
    I have noticed that in our discussion yesterday the Corps 
suggested that the State would not sign the PPA in connection 
with outfall canals. And based on my understanding, the State 
has some concerns with respect to the partnership agreement 
that was proposed unilaterally by the Corps. And some of the 
concerns that we have include the following: The Corps' own 
document reports indicate that other options are better than 
the option that the Corps has chosen to implement. The Corps 
has refused to conduct a full analysis of the other options and 
suggested to economy that it would take 3 years and 15 million 
to compare the various options. This is significantly more time 
and money than the Corps spent on their preferred option.
    Second, the Corps has not developed a feasibility level 
documentation on any outfall canal options. The State has asked 
that peer review by performed on all three canal solutions. The 
Corps has agreed to perform peer review of only one canal, that 
is the 17th Street canal. And the last concern that was 
conveyed to me by the State is the very unique project delivery 
process the Corps intends to use design build to carry out the 
permanent solution on the outfall canals. This State, based on 
my understanding, has asked that the State has an opportunity 
to concur in the ultimate design of the solutions.
    So these are some of the issues that we are trying to 
address with respect to the partnership agreement that was 
proposed by the Corps. And I hope that as we continue our 
conversations today, we can look at some of these issues and 
hopefully come up with some kind of compromise.
    Thank you very much and I yield back the balance of my 
time.
    Ms. Johnson. Thank you very much, Congressman. Now I 
introduce the panel of witnesses, our first witness this 
morning is Mr. Robert Perciasepe, and he is deputy 
administrator for the U.S. Environmental Protection Agency. 
Next Ms. Jo-Ellen Darcy, she is the Assistant Secretary for the 
Civil Works for the U.S. Army Corps of Engineers. And our third 
witness is Lieutenant General Robert L. ``Van'' Van Antwerp, 
who is Chief of Engineers for the U.S. Army Corps of Engineers.

TESTIMONIES OF ROBERT PERCIASEPE, DEPUTY ADMINISTRATOR, UNITED 
 STATES ENVIRONMENTAL PROTECTION AGENCY; HON. JO-ELLEN DARCY, 
ASSISTANT SECRETARY FOR THE ARMY FOR CIVIL WORKS, UNITED STATES 
  ARMY CORPS OF ENGINEERS; AND LIEUTENANT GENERAL ROBERT VAN 
   ANTWERP, CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS





    Ms. Johnson. Your full statements will be placed in the 
record. And we ask that you attempt to limit your testimony to 
about 5 minutes as a courtesy of the other witnesses and then 
we will have question rounds. So Mr. Perciasepe, you may 
proceed.
    Mr. Perciasepe. Chairwoman Johnson and Ranking Member, 
thank you for inviting me to the meeting today. And Members of 
the Committee, thank you for being here to talk about the EPA 
budget. I want to discuss the fiscal 2011 budget briefly here 
in my opening comments and obviously go to the questions.
    This budget fully represents and reflects President Obama's 
and our commitment to environmental protection and ensure that 
all families across the country have access to clean air, water 
and land. Much work has gone into preparing this budget over 
the last year. And I am proud that it reflects the goals of the 
Agency, and specifically, this budget is a framework to protect 
America's waters, clean up our communities, address climate 
change, improve air quality, assure safety of chemicals, expand 
the conversation on environmentalism in the country and to work 
for environmental justice, and to continue to build strong 
State and tribal partnerships, which are vital to our success.
    Let me touch on a couple of the highlights of this budget 
that will protect human health and the environment and lay a 
new foundation for our prosperity. Protecting America's waters 
are a top priority for EPA due to the tremendous impacts water 
quality has on human, environmental health and economic health. 
For fiscal 2011, this budget reflects EPA's commitment to 
upgrade drinking water systems and wastewater infrastructure 
with a substantial investment of $2 billion for the Clean Water 
State Revolving Fund, and $1.3 billion for the Drinking Water 
State Revolving Fund. This will initiate 800 new clean water 
projects and 500 new drinking water projects across the 
country. This is on top of all the other Recovery Act funds 
that are already out there and under contract.
    Also the fiscal year 2011 budget request support for a 
number of nationally significant ecosystem restoration efforts. 
For instance $300 million for the Great Lakes, $63 million for 
the Chesapeake Bay and some other funding for other ecosystem 
projects.
    This budget also promotes new and innovative strategies for 
cleaning up communities to protect sensitive populations, such 
as children, the elderly and individuals with chronic diseases. 
The budget proposes $215 million for brownfields clean up. An 
increase of $40 million to support planning clean up, job 
training, redevelopment of brownfields properties, especially 
in underserved and disadvantaged communities.
    In addition this budget proposes $1.3 billion for Superfund 
cleanup efforts across the country. Clean up of contaminated 
properties take pollution out and puts opportunity and jobs in.
    The President's budget also asks Congress to fund the 
sensible measured steps that EPA is taking to begin addressing 
greenhouse gas pollution. Three years ago the Supreme Court 
held that greenhouse gas emissions are air pollutions under the 
Clean Air Act. EPA has an obligation to prepare itself, State 
governments and industry for reasonable requirements in a 
manner fully compatible with the objective of legislation that 
is being debated.
    The budget requests more than $43 million for additional 
efforts aimed at taking action on climate change. Two-thirds of 
that money is for States to develop technical capacity for 
whatever programs may come in the future, as well as the 
projects under the Supreme Court's decision.
    Example of this commonsense approach is embodied in the 
agreement that we made with the Nation's automobile makers. The 
States and we have all reached the historic agreement to 
establish uniform, light duty vehicle standards that will 
eliminate 950 million metric tons of greenhouse gas pollution 
and save 1.8 billion barrels of oil consumption. The budget 
requests $6 million for the implementation of that rule and 
pursuing similar agreements in the transportation sector.
    While addressing global warming, this budget also takes 
steps to ensure that local air quality is good for all, 
including those with respiratory problems. To improve air 
quality EPA will continue our support of enhanced monitoring 
and enforcement efforts. This budget requests $60 million of 
increased funding for state grants to address expanded national 
ambient air quality standards as well as needed air quality 
monitoring requirements. The budget also provides $6 million to 
improve air toxics monitoring capabilities to address 
compliance and enforcement issues.
    Toxins are found not only in air missions, but many of the 
common chemicals that we use every day. And we have an 
obligation to the American people to ensure these chemicals are 
safe. At the end of 2009, EPA released first ever chemical 
action plans, four groups of substances and more plans are in 
the pipeline for 2010.
    In this budget, EPA proposes $56 million for chemical 
assessment and risk review, including continued development of 
chemical management plans to ensure that no unreasonable risk 
are posed by new or existing chemicals.
    We have also begun a new era of outreach and protection for 
communities, historically underrepresented in environmental 
decision making. We are building strong working relationships 
with tribes, communities of color, economically distressed 
cities and towns, young people and others, but this is just a 
start. We must also bolster our relationships with our State 
and tribal partners. These are areas that call for innovation 
and bold thinking. And the administrator is challenging all of 
our employees to bring vision and creativity to our programs.
    Thank you for allowing me to briefly go through the 
highlights of our 2011 budget, and of course I am going to be 
happy and looking forward to answering all of your questions.
    Ms. Johnson. Thank you very much. The Honorable Jo-Ellen 
Darcy.
    Ms. Darcy. Chairwoman Johnson, Congressman Boozman, other 
Members of the Committee, thank you for the opportunity to 
present the President's budget for the Civil Works program of 
the Army Corps of Engineers for fiscal year 2011. The fiscal 
year 2011 President's Budget for Civil Works program is $4.939 
billion. The budget supports four principle objectives: Funding 
construction of the highest performing water resources 
infrastructure investments that will provide the best return 
from a national perspective; supporting the Nation's navigation 
network by funding capital development achievable within 
current revenues; advancing aquatic ecosystem restoration 
efforts and continuing to meet the requirements of the 
Endangered Species Act; and emphasizing critical maintenance 
and operational reliability of the existing Civil Works 
infrastructure.
    The budget focuses funding primarily on three main Civil 
Works program areas, commercial navigation, flood and coastal 
storm damage reduction, and aquatic ecosystem restoration. The 
budget also supports hydropower, recreation, environmental 
stewardship and water supply services at existing water 
resources projects owned or operated by the Corps.
    Finally, the budget provides for protection of the Nation's 
regulated waters and wetlands, clean up of sites contaminated 
as a result of the Nation's early efforts to develop atomic 
weapons; and emergency preparedness and training.
    In keeping with President Obama's commitment to limit the 
overall level of non-security discretionary spending, the level 
of funding in the 2011 Civil Works budget is a reduction from 
both the 2010 budget and the enacted 2010 appropriations. 
However, the 2011 funding level reflects a practical, effective 
and sound use of the Nation's financial resources.
    The Army continues to apply objective performance 
guidelines to many competing Civil Works construction projects 
in order to establish priorities among them and to guide the 
allocation of funds to high performing ongoing projects and 
high performing new construction starts. These guidelines 
emphasize investments that provide the best return from a 
national perspective in achieving economic, environmental and 
public safety objectives.
    The budget includes two new starts and several new 
initiatives. One of the construction new starts is the 
Louisiana Coastal Area Program, which will provide funding for 
the construction of projects coming out of the study by the 
same name, after they have favorably completed Administration 
review. The other construction new start is a nonstructural 
flood damage reduction project at Onion Creek, Texas. Within 
the O&M program, there is funding for a new Global Changes 
Sustainability Program to assess the impact on Civil Works 
projects of climate change as well as impacts of shifting 
demographics, changing land use and changing social value. 
Understanding those impacts will enable the Corps to identify 
operational and other modifications to anticipate and respond 
to changing requirements to achieve and maintain 
sustainability.
    Last year, the Administration proposed legislation for a 
new user fee to increase revenue to the trust fund, and that 
proposal remains available for consideration by Congress in 
support of the 2011 budget. The Army continues to work in 
partnership with the inland waterway stakeholders to identify 
priorities and an effective funding stream for inland waterway 
construction and rehabilitation for the next 20 years, which 
could be made possible by enactment of a new funding mechanism.
    The budget provides $180 million for the South Florida 
Everglades ecosystem restoration program. This includes funding 
for continued construction of 5 significant restoration 
projects: Picayune Strand, Site One Impoundment, Indian River 
Lagoon South, Kissimmee River, and the C-111 project.
    The budget also supports work on other major ecosystem-wide 
initiatives, in part through Federal interagency working groups 
headed by the Council on Environmental Quality. The budget 
includes a total of $52 million for one such effort, which is 
the California Bay Delta Restoration. Within the ongoing 
Cultural Resources Program, $3 million is included to continue 
the Veterans Curation Project, which was initially funded 
through the American Recovery and Reinvestment Act funding and 
recently received the annual Chairman's Award from the Advisory 
Council on Historic Preservation. The Veterans Curation Project 
supports small curation laboratories in Augusta, Georgia; St. 
Louis, Missouri; and Washington, D.C.--three cities with high 
populations of recently returning and wounded veterans.
    The veterans are hired into temporary working positions and 
receive on-the-job training in curation of some of the backlog 
of archeological and historic properties that have come into 
the Corps' possession over the years. This is an innovative 
approach to supporting returning and disabled veterans of all 
branches of the military service with jobs and training in a 
variety of technical skills with broad applicability while 
benefiting the Civil Works program. I spoke at the opening of 
the lab in Augusta, Georgia and I was very moved by the stories 
of how this program has given hope to recovering veterans.
    In conclusion, this is a frugal budget that reflects the 
priorities of a Nation that is both at war and successfully 
navigating its way out of economic upheaval. While this budget 
does not fund all of the good things that the Corps of 
Engineers is capable of doing, it will support very important 
investments that will yield long-term returns for the Nation's 
citizens. Thank you, Members of the Subcommittee, and I am 
proud to support the 2001 budget of the Army Civil Works 
program. Thank you.
    Ms. Johnson. Thank you very much.
    Now Lieutenant General Robert Van Antwerp.
    General Van Antwerp. Madam Chair, Congressman Boozman, 
distinguished Members of the Subcommittee, this budget is a 
performance-based budget. It makes the best use of available 
funds through a focus on projects and activities that provide 
the highest economic and environmental returns or address 
significant risk to human safety. This budget funds 99 
construction projects, four of those projects included in that 
99 are from the Mississippi River and Tributaries account. 
There are 10 dam safety, 20 projects that address risk to human 
safety, and 69 other projects.
    The budget supports restoration of nationally and 
regionally significant aquatic ecosystems, with emphasis on the 
Florida Everglades, Louisiana Coastal Area, and the Hamilton 
Airfield in California in San Francisco Bay. The budget 
supports the Columbia River and Missouri River fish projects to 
support the continued operation of the Corps of Engineers 
multi-purpose projects by meeting the requirements of the 
Endangered Species Act.
    As soon as the Corps constructs a project, as you might 
imagine, our attention immediately turns to the operation and 
maintenance of those projects. Generally with periodic 
maintenance, we can operate our facilities for many, many 
years. The average age of our 241 locks incidentally is 58.3 
years old. The budget supports our continued stewardship of 
this infrastructure by focusing funding on key infrastructure 
that is of central importance to the Nation.
    The operation and maintenance program for the fiscal year 
2011 budget includes $2.361 billion and an additional $153 
million under the Mississippi River and Tributaries account.
    We support the President's commitment to continue sound 
development of the Nation's water resources. Domestically, the 
Corps of Engineers has been at work across the Nation as we 
continue to respond to the call during national emergencies. 
The critical work that our folks are doing reduces the risk of 
damage from future storms and helps out the people in 
communities of this Nation.
    Internationally, the U.S. Army Corps of Engineers continues 
to support the mission in Iraq and Afghanistan and in 32 other 
countries. In those two particular countries, to build 
foundations for democracy, and freedom, and prosperity. I 
especially want to recognize the many expeditionary Corps of 
Engineers civilians that have deployed to those theaters. Over 
the time frame, we have been in Iraq and Afghanistan, and if 
you include southeast Louisiana, we have deployed over 10,000 
members of the Corps to places other than what their normal 
workplace is. We are very proud of that effort.
    In closing, the Corps of Engineers is committing to staying 
on the leading edge of service to our Nation. We are committed 
to change that ensures an open, transparent and performance 
based Civil Works program.
    Madam Chair, thanks for this opportunity and I look forward 
to your questions.
    Ms. Johnson. Thank you, first round of questions. I want 
the witnesses to know that this Committee feels that you are 
the most important agencies for the purposes of having clean 
water and good water infrastructure. I want to ask a little 
question about the coal ash spill in Kingston. We have had a 
number of hearings, but recently I received a letter from a 
resident in Tuscaloosa, Alabama expressing concern about the 
potential illegal discharges coming from the landfill in Perry 
County, Alabama and that is being used, of course, to store 
this coal ash that was removed from the Kingston spill. Most 
alarming is the concern that water quality samples taken near 
the landfill seem to show arsenic at unsafe levels, and may be 
emanating from the landfill.
    So I am wondering if the EPA took the leadership in getting 
something started there. I don't know if you are familiar with 
that, if you are, I would like to hear from you.
    Mr. Perciasepe. I have to remember to push the button.
    Ms. Johnson. If not, we can get it later.
    Mr. Perciasepe. Yes. Well, I think what you are talking 
about is where some of the coal ash, sludge that was------
    Ms. Johnson. Tennessee Valley.
    Mr. Perciasepe. In Kingston and where it is trying to be 
disposed of. And we are closely monitoring that situation 
there, and we, certainly in Alabama, and we can certainly set 
up a time for you to get a more detailed briefing on that. We 
share concerns on the financial, the financial status of the 
company there right now, we are reviewing that and we have 
looked at the other environmental issues there and would love 
to be able to get you a more detailed briefing on it. But we 
are very concerned and closely monitoring that situation.
    Ms. Johnson. Thank you. I notice that the national media 
has done a story on it in USA Today.
    I have a commitment fromt the EPA to follow up on this 
allegation and ensure that proper procedures are being 
followed. So I know that I will be back in touch with EPA on 
this issue very quickly. Mr. Boozman.
    Mr. Boozman. Thank you. EPA is proposing to substantially 
increase the funding for its enforcement programs, but it is 
also zeroing out the Agency's compliance assistance program 
which seems--do you support zeroing out the compliance 
assistance program? Is that something that has been of benefit 
in the past or not?
    Mr. Perciasepe. Well, what we are doing is organizing so 
that whatever compliance assistance we provide through our 
regional offices at our national level are all part of one 
program and that is what transition is about.
    Mr. Boozman. So that------
    Mr. Perciasepe. Of course, we want to be able to continue 
to provide assistance where it is appropriate on how to be in 
compliance with environmental laws, but the fact that we are 
organizing a different way doesn't mean we are not going to be 
able to do that.
    Mr. Boozman. So it is just a reorganization, you are not 
going to--very good, that is helpful.
    Tell me about the situation that we talked about yesterday, 
we have a situation where we have a nearly completed rewinding 
project, it is $115 million project, we spent $80 million, it 
will cost $20 million to discontinue the project.
    So for another $15 million, we could get it completed. I 
think the cost benefit would be 1.2. So if we discontinue it, 
it will cost the taxpayers $100 million. If we spend an 
additional $15 million with a 1.2, then I think we get $138 
million in return. The other problem is that we had a system 
that was working, probably about two-thirds of capacity, now it 
is dismantled and not working at all.
    So we have a problem that we are losing the electricity 
that we had, rates will go up and you might comment on that, 
you might comment also about the number of jobs that will be 
lost.
    Ms. Darcy. Congressman, the project I believe you are 
referring to is the Ozark-Jetta project in Arkansas. That 
project for purposes of this fiscal year's budget did not meet 
the criteria of having a 2.5 benefit to cost ratio which was 
the cut off for that kind of project in this budget.
    Mr. Boozman. So your policy is you change the rules in the 
middle stream so to speak. I really don't understand that.
    Now, I guess the other problem we have with this is that 
last year this administration spent another $15 million on the 
project, so are we even changing from year to year now. Maybe 
next year the cost benefit ratio is going to change and you are 
going to discontinue projects.
    Ms. Darcy. Congressman, this project was not budgeted for 
in the 2010 budget or the 2011 budget. The $15 million you are 
referring to is from ARRA funding, the criteria for funding 
ARRA projects was different from that criteria we used in 
budgeting in 2011.
    Mr. Boozman. You know, 2 plus 2 equals 4, and this is 2 
plus 2 equals 5. And it just makes no sense at all. I guess 
this is why to me the public loses faith in government. Again, 
do you disagree with the facts in the sense you spend an extra 
$15 million, you get $138 million get back, you get hydropower, 
clean power that we are all talking that we need, which I agree 
with very much and if you don't do it the taxpayers lose $100 
million. I mean, is that--do you agree with those facts?
    Ms. Darcy. I am familiar with many of the facts you just 
cited, sir, but again, in our consideration of all of the 
worthy projects within the Corps' realm of capabilities, this 
project was not considered to meet the criteria of benefit to 
cost ratio for the purpose of this year's budget.
    Mr. Boozman. So the taxpayers are just out?
    Ms. Darcy. In some sense.
    Mr. Boozman. And the people that depend on this energy that 
was being delivered before you went in--it is kind of like 
taking your car in for a tune-up and taking it all to pieces an 
then not having anything left. So will there be job loss as a 
result of this?
    Ms. Darcy. I--I don't know that answer. I can find out for 
you.
    Mr. Boozman. Will you support an IG investigation regarding 
it? We have $100 million loss to the taxpayers. Is anybody 
responsible for that?
    Ms. Darcy. The cost to the taxpayers is our responsibility, 
sir. And I would--if an IG investigation is underway, we would 
be happy to cooperate with it.
    Mr. Boozman. OK. Also will you give us--we would like, I 
think, all the documents, all of the e-mails. Again, I guess 
the problem is this is 2 plus 2 equals 5, so it is very hard to 
imagine the administration's thinking in regard to this, it 
makes no sense. And so I would very much like all of the 
documents, all of the e-mails, all of the thinking process so 
that we can better understand how you arrived at your opinion.
    General, are you on the same page, do you think this is 
wise use of taxpayers money?
    General Van Antwerp. Congressman Boozman, I would say the 
five turbines, which you are very familiar with, the money that 
is in the budget, it isn't that the $100 million is totally 
lost, because the first two turbines will be completed with the 
dollars that we have. And actually, the dollars that we have 
will take us in through the beginning of fiscal year 2011. That 
is when the crunch point comes, either in this continuing 
contract there is more dollars or the Southwest Power 
Administration bridges a gap for us or we have to terminate the 
contractor.
    What the contractor has done is enough to repair two and 
buy the parts for the other three. And then that is where it 
would be--but there has been work done, and two of those 
turbines will be up so that is kind of just more additional 
facts as we look at the entire project. But what you are 
weighing is the sum cost versus the termination cost, and that 
is a valid discussion and challenging always to say we are 
going to stop right here and have three turbines that will not 
be operation unless we find other funding for them.
    Mr. Boozman. Thank you very much. We have some other 
questions that we would like to submit for the record. And 
again, we will move forward on the documentation and things 
like that, so thank you very much.
    Ms. Johnson. Thank you very much. The Chair now recognizes 
the distinguished Member from California Congresswoman 
Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair, and I want to 
direct my questioning, first of all, to Ms. Darcy, thank you 
very much for the response to my November letter, thank you.
    Ms. Darcy. Sorry it was so late.
    Mrs. Napolitano. And part of it is you refer in almost the 
last paragraph the funding was allocated in 2010, it was not 
fully funded, so I want to be sure there is no question later 
on that this project the raising of the levees on that dam, the 
study is fully funded because it was almost 300, and I think 
the appropriation was 134. I want to be sure there is no 
question in the actual amount to be able to be infused into 
that.
    Ms. Darcy. I think it is funded at $300,000 if I am not 
correct.
    Mrs. Napolitano. I want to be sure, you will check for me. 
Secondly, the fact that you indicate that you won't be able to 
approve the safety portion of the study until later in the 
year, even though water replenishment district is willing to 
pay for the raising of the levees on their own with their money 
which would help be able to--how would I say, take care of some 
of the burden on the taxpayer costs.
    So if they are willing to do it, would there be a way to 
expedite it, instead of waiting, we are going to lose a lot of 
water. 1,100 acre feet a year that can be put into an aquifer 
by raising that levee and having that be more beneficial to the 
whole area of 15 million people around that area.
    Ms. Darcy. I think your question is whether we can expedite 
the study to determine the safety of the dam?
    Mrs. Napolitano. Correct.
    Ms. Darcy. I will check to see if there is any way we can 
expedite it with the funds available.
    Mrs. Napolitano. It is level 2.
    Ms. Darcy. Two.
    Mrs. Napolitano. That would be beneficial so I would 
appreciate anything you could do.
    The other question is for Mr. Perciasepe that has to do 
with the 2004 IGs identifying the 10 special Superfund sites. 
Well, during the last administration, they went from 80 per 
year approval to a low of 20 because it was lack of resources. 
If Congress were successful in reauthorizing the revenue 
sources, would it be able to accelerate the cleanup of the 
Superfund sites? And if you wouldn't mind telling us how that 
would happen, how would you speed up that pace with a robust 
trust fund.
    Mr. Perciasepe. We are already trying to use for instance 
we had an influx of $600 million under the Recovery Act funding 
that helped us start to accelerate a little bit. We are 
anticipating in our fiscal year 2011 that we will start going 
up a little bit on the traditional measures of the completion, 
but one of the other things that is really important that we 
are starting to implement at EPA and have started to look at 
how to build this more level of transparency and 
accountability, start looking at every piece of a project, not 
just the whole project, which that is very important to look 
at. But the whole project doesn't get done until the pieces get 
done, sometimes we are losing track of the pieces and not for 
want of a whole.
    So we are going to start tracking every part and every step 
of the project, making that a publicly available information so 
that people can see exactly what the status------
    Mrs. Napolitano. Will you able to do that, the question is?
    Mr. Perciasepe. Yes.
    Mrs. Napolitano. Would you be able to expedite, to speed up 
that pace of that cleanup?
    Mr. Perciasepe. We think with that kind of management 
structure and with additional funds, there can be an 
acceleration of parts and whole projects completed.
    Mrs. Napolitano. Well, most of what I have been involved 
with in Superfund site cleanup in San Gabriel Valley has been 
the PRP's identification. Have you managed to be able to go 
around that and be able to come back and pick those up rather 
than delay the projects that are affecting the health of the 
people in the area?
    Mr. Perciasepe. Well, if there are health issues, we will 
act quickly as we can on that. If there is long-term collection 
of money or after the effect collection of money through 
enforcement programs or identifying the responsibility parties, 
we will continue to do that aggressively as well.
    Mrs. Napolitano. It would be nice to have a report to the 
Subcommittee, Madam Chair, on whether or not this would be 
feasible and how you feel that that might be implemented and 
what time frame.
    Mr. Perciasepe. I would suggest at your suggestion here 
that we present an overview of the banishment structure we are 
trying to put in place now. We are calling it the Integrated 
Cleanup Initiative that would look at the sites more 
holistically.
    Mrs. Napolitano. That would be very helpful, sir. Madam 
Chair for the Committee I would like to have it entered into 
the report when they report it. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5275.017
    
    [GRAPHIC] [TIFF OMITTED] T5275.018
    
    Ms. Johnson. Representative Cao, do you have questions?
    Mr. Cao. Yes, I do, thank you Madam Chair. My first 
question is to the EPA Secretary. You stated in your statements 
and I quote, ``all families have access to clean air, water and 
land.'' There is an issue in Norcross, Georgia that I would 
like your institution to look into. There is a church in 
Norcross that supports about 1,100 families. And there is a 
waste transfer station that is being built right next to the 
church. I am not sure whether or not legal steps were being 
carried out in order to get the permits or whether or not other 
issues are involved, but it seems to me just on its face the 
project seems to endangers the ability of the people who are 
parishioners of the church as well as the surrounding areas to 
have access to clean land at least. If you can look into that 
issue, I would really appreciate it. That is one issue.
    The other issue that I would like to ask you concerning the 
number of employees with respect to the rural water technical 
assistance program. I believe that in my district there is only 
one employee, while in an adjacent district comprised of 
Metairie, Kenner, St. Tammany, there are 59 employees. And as 
you examine these program for cross-cuts have you considered 
whether or not personnel are allocated in a more efficient 
manner.
    Mr. Perciasepe. I am just going to say I don't really think 
that these are EPA employees. I think that this is a grant that 
is provided, but I hear what you are saying on that and I will 
make sure that we look into it and let you know what factors 
are involved in that grant program.
    Mr. Cao. OK.
    Mr. Perciasepe. But I don't know the specifics of how that 
grant program is allocating the employees on the ground.
    Mr. Cao. Thank you very much.
    Secretary Darcy, I just want to continue with our 
conversation and General Van Antwerp from yesterday, there are 
about 15 near-term projects designs to redistribute freshwater, 
nutrient and sediment resources in an effort to abate land 
loss. All 15 of the near-term projects were authorized for 
construction in 2007. However, to date, none of the projects 
have been constructed. My first question to you is, is it 
possible to complete the 15 projects with the intended near 
term next 6 years or so?
    Ms. Darcy. Are you referring to the Louisiana Coastal Area 
projects?
    Mr. Cao. Yes.
    Ms. Darcy. Currently underway, we have, I think, six of the 
studies are underway. We expect, I think, to complete those 
this fiscal year. And we also have one of our new starts within 
our construction budget for LCA related programs at $19 
million.
    Mr. Cao. Now, would that be sufficient to meet the intended 
deadline since the Corps has missed deadline after deadline? I 
am just wondering.
    Ms. Darcy. The funding in this year's budget for the six 
studies in LCA is sufficient to complete those studies, sir.
    Mr. Cao. The State of Louisiana loses between 20 to 40 
square miles of coast every single year. And I have addressed 
this issue with the Corps before in that it is somewhat 
baffling to me that some of the dredging materials from the 
Mississippi River that could have been used to restore a 
coastline are simply being dumped into the ocean. Can you 
explain to me how this policy in our State, does it differ from 
the application in other States?
    Ms. Darcy. No, Congressman, it doesn't. The beneficial use 
of dredge materials is driven in many ways by the kind of 
project, the kind of materials that the dredging comes up with, 
whether it is silt or fine silt, what the condition of that 
material is as to whether it needs to be treated before it can 
be disposed of, whether it needs to go to a confined disposal 
facility, or whether it is in a condition to be used for 
beneficial use in another circumstance.
    The current policy for beneficial use of dredge material is 
that dredge material should be the least cost alternative in 
disposal. However, we have found in many instances right here 
close to home in Maryland and other states that the use of the 
material can be beneficially used in something other than open 
water disposal. Much of that depends on the kind of material 
that we are using in the current waterway where it would be 
disposed of.
    Ms. Johnson. Thank you very much. Mr. Kagen.
    Mr. Kagen. Thank you Madam Chairman, and thank you all for 
your testimony here today. I have the great honor of 
representing Green Bay, Wisconsin, we have a harbor that is in 
peril and in need of dredging its channel. We need more than 
one lane of traffic, we need two lanes, it should be a 
sufficient step to allow our cargo to come in without having 
light loads. You are well aware of this both at the EPA as well 
as the Army Corps. I thank you for your past attention. And 
certainly Congress has stepped up in terms of providing the 
necessary funds to dredge our harbor to guarantee the economic 
opportunities for our region.
    For those of you who don't know it, the Fox River is one of 
two of our rivers in North America that run north and it drains 
into the Great Lakes. This is important because we also have 
the largest concentration of papermaking in the world in 
northeast Wisconsin along that river where we have 
hydroelectric power and greatest use of PCBs anywhere other 
than the Hudson River.
    Currently the responsible parties are in the process of 
effectively remediating the PCBs and removing them and dredging 
them and in an environmentally safe manner. And also recently, 
after we achieved the successful funding of the dredging of our 
harbor, the EPA issued two letters, first in September of 2009 
and then December of 2009. The first letter saying that the 
Army Corps could dredge the harbor; and the second saying they 
had to stop unless they would be using a technique of dredging 
that would collect all the resuspended PCBs and any other 
particulate matter that would be harmful to our environment.
    So I am hopeful that the somewhat troubled marriage between 
the Army Corps and EPA could work out this problem. As I 
understand it the EPA suspended dredging of the economically 
necessary harbor. And I would like to see you move forward to 
resolve that conflict as rapidly as possible.
    So my question is to Lieutenant General Van Antwerp, do you 
have the necessary technology and funding and capability to 
dredge the harbor in an environmentally safe manner as 
requested by the EPA, and if not, can you obtain it? And 
finally, is it already too late in the season to let out 
contracts that could get this job done as rapidly as possible 
and on schedule?
    Ms. Johnson. I am going to ask that we recess. We have 
three votes. We have less than 5 minutes. And if you will--you 
will have time to get your answer for him. We will be back as 
soon as we can.
    Mr. Kagen. You get time to think this one over.
    [Recess.]
    Ms. Johnson. The meeting will come to order, and I will 
recognize Mr. Kagen. 
    Mr. Kagen. Thank you, again, Madam Chairwoman.
    And thank you again for coming to testify before the Water 
Resources Subcommittee. Before we were breaking for votes, we 
were having a conversation about the harbor in Green Bay, and 
perhaps Lieutenant General Van Antwerp, which in Dutch means 
from Antwerp, maybe you can continue.
    General Van Antwerp. Congressman, thank you.
    As I heard, there were three issues. One, do you have the 
technology to do the dredging in the Superfund area? The answer 
to that is yes. Now, whether the dredges that are currently 
dredging have that or it has to be different, we are going to 
find that out. That is still a due out to you. What are the 
incremental costs from doing the maintenance dredging to doing 
this dredging? We give a rough estimate of about $6 million to 
do that other part, $5 million to $6 million. We have $6 
million already for the maintenance dredging. So it about 
doubles the cost to do the handling, because you also got to 
handle the disposal of the material. And then the final thing 
is the window, the when. And we owe you an answer on that when. 
And it will depend on, what is the most efficient way to do 
this dredging? So we owe that back to you.
    Mr. Kagen. Do you have a date when you can tell me when?
    General Van Antwerp. I will commit to getting back with 
your office within a week to give you either an update or 
hopefully the when we could do that. Would that be acceptable?
    Mr. Kagen. That would be great. Thank you very much.
    And how many jobs are associated with that dredging, and do 
you subcontract that out?
    General Van Antwerp. The dredging is subcontracted. We have 
a couple of Corps dredges, but they are reserve fleet. Most of 
our dredging is done by contract, and so there are jobs 
associated with that.
    Mr. Kagen. And notwithstanding any other Congressman or 
woman's districts or their needs, would you agree to move the 
harbor of Green Bay up to one of your top priorities to get 
them on the job and dredging as rapidly as possible?
    General Van Antwerp. I would say we already are doing--I 
have got to find out if we started it or when we are going to 
do it, the outer harbor. But we are already committed to doing 
that part. And had we not had this little stoppage, we would 
have been doing the Turning Basin, too. So our commitment is to 
get there as quickly as we can with what we have. The dredges 
are used always, because that is how they make the best use of 
them, is if they are working all the time.
    Mr. Kagen. And do I have confirmation from the EPA as well 
along these lines that you will agree?
    Mr. Perciasepe. You have my commitment we will put the 
resources necessary into this process to make sure we get the 
decisions that are needed to get this taken care of. We have 
these dual needs here. One is to get the navigation going and 
get it upgraded, and. The other one is, now that we know about 
PCBs in some of the material, to make sure that we handle it 
properly for the citizens that live near the harbor, and the 
fish, of course, and the fish that they eat. So we are ready to 
go. We will put the resources into it.
    Mr. Kagen. So we have an agreement that you are going to 
get her done as quickly as possible.
    Mr. Perciasepe. Yes.
    Mr. Kagen. And we will have a healthy economy and healthy 
people as a result.
    Let me ask you about the health of the budget that you are 
recommending. As I understand it, the Great Lakes Restoration 
Initiative is at $300 million, and there might be a carryover 
of $75 million that might also be available. Is that sufficient 
to meet the needs of the responsibilities you have in front of 
you?
    Mr. Perciasepe. Well, you know, the long-term needs, 
obviously, are much greater than $300 million. But looking at 
the start-up of the programs we have underway, the RFP process 
that is out there and sort of the lag that we will have going 
down the road is we want to make sure we pick the right 
projects and get results on the ground, we think that that is a 
comfortable number to work within.
    Mr. Kagen. Very good. I yield back my time.
    Thank you Madam Chairman.
    Ms. Johnson. Thank you very much.
    Mr. Cao.
    Mr. Cao. Thank you very much Madam Chair.
    Mr. Perciasepe, is that correct?
    I was visiting a tugboat company down in New Orleans, maybe 
a month ago, and they were conveying to me a concern that they 
have. At the present moment, the EPA regulations require that 
rainwater falling on these boats must be collected. Is that 
correct? And what is the economic impact of such a requirement?
    Mr. Perciasepe. I am sorry, Congressman, I am not familiar 
with an EPA requirement to collect rainwater on ships. I am not 
saying that there isn't one; I just am not personally familiar 
with it.
    I am sorry, I don't know that we have any regulation like 
that.
    Mr. Cao. Because that was a concern that was conveyed to me 
by the operators of the ships.
    Mr. Perciasepe. We definitely have requirements on the 
diesel engines for emissions, particularly in harbor areas 
where a lot of people live, just like we do with trucks and 
other vehicles that use diesel engines. But in terms of 
rainwater falling on a tugboat, I am hesitant to say that we 
don't have any, but I do not know of any that we would have.
    Mr. Cao. What about spraying and washing?
    Mr. Perciasepe. That is possible, washing. I don't like to 
do this, but I am going to have to tell you, I am going to have 
to find out the details on this and get back to you, but I do 
not know of any on rainwater. Now, maybe there is something 
with washing.
    Mr. Cao. I know that there have been reports of eight 
deaths that might have contributed to Chinese drywall. Are you 
familiar with the issue at all?
    Mr. Perciasepe. Yes, Congressman, I am generally familiar 
with the issue. And the Consumer Product Safety Commission is 
obviously looking into this in a detailed way. EPA has done 
some testing of some of this drywall for them, both in 
Louisiana and in Florida. I heard this morning actually in a 
meeting with the Florida delegation that there is some new 
information that the Centers for Disease Control, I think, or 
some other health organization, has prepared. And we told the 
Florida delegation this morning that we would get that 
information and see if it has any bearing on how EPA interacts 
with the Consumer Product Safety Commission, who currently has 
the lead on dealing with this issue. So I am going to get that 
information along with the administrator as soon as we can. I 
think it was the Centers for Disease Control that was 
mentioned. And that may be where that information about the 
perhaps deaths attributed to issues that might be attributed to 
the drywall.
    Mr. Cao. Thank you very much.
    Secretary Darcy and General Van Antwerp, I know that after 
speaking with the Louisiana Coastal Protection and Restoration, 
they were telling me that, with respect to the PPA they would 
sign the agreement if some of these issues are addressed. And 
one, is there must be some opportunity for the State to concur 
or approve the design of the permanent solution for an outfall 
canal as determined by their design build contractor. That is 
one. Two, an agreement to perform peer review on the designs 
for all three outfall canal solutions, the 17th Street canal, 
London Avenue and Orleans. And three, a provision that requires 
that option-neutral features be constructed while concurrently 
addressing the next criteria, which is an agreement to evaluate 
all options on the outfall canals, as identified in the reports 
to Congress pursuant to Section 4303 of the Emergency 
Supplemental Appropriations Bill.
    So those are some of the conditions that they presented to 
me to present to you for your discussions with the State. I 
would ask that your staff look into that, and hopefully, an 
agreement can be reached with the State so that we can build 
these permanent pumps, something that, General Van Antwerp, you 
alluded to yesterday as being desperately needed in preparation 
for the coming hurricane season.
    And my next question to you is concerning the comprehensive 
plan for a Category 5 hurricane protection for south Louisiana. 
According to the fiscal year 2006 Energy and Water 
Appropriations Bill and the Third Emergency Supplemental 
Appropriations Bill, Congress required the Corps to development 
a multi-approach plan to provide up to Category 5 hurricane 
protection for south Louisiana.
    The final report was to be submitted to Congress within 2 
years of enactment, which was December of 2007. Section 7014 of 
order 2007 directs the Corps to provide specific project 
recommendations as part of the report. This report has not yet 
been presented to Congress. Can you tell us as to when you are 
going to provide this report?
    Ms. Darcy. I think you are referring to the LA CPR Report, 
Congressman.
    Mr. Cao. Oh, this is a report concerning the comprehensive 
plan to provide south Louisiana with Category 5 protection.
    Ms. Darcy. We are currently--we have asked the state to 
comment on this report, the LA CPR report, and we are waiting 
their comments on it. We submitted it to them I think in the 
fall when I first got in the job, so I think it was in the 
fall. So we are waiting to hear back from the state on their 
comments on the report.
    Mr. Cao. Thank you very much.
    I yield back. I see that I am out of time.
    Thank you.
    Ms. Johnson. Thank you very much.
    Congresswoman Norton.
    Ms. Norton. Thank you, Madam Chairman. I appreciate this 
hearing to clarify the budget matters before us. I would like 
to ask a question. I suppose it should go to Lieutenant General 
Van Antwerp. We work very closely, of course, with the Corps 
and have a very good relationship with the Corps. I would like 
to ask you a few matters having to do with your work here in 
the Nation's Capital.
    You are aware that one of the few, if only, residential 
sites was a Formerly Used Defense site where there was, toxic 
emissions unbeknownst to the community in one of our 
neighborhoods is now being cleaned up. It is the Spring Valley 
neighborhood in Northwest, Washington. Each time the Corps is 
before me, given the clear danger to residents, given that this 
would never have been done if the District, it seems to me, at 
the time it had home rule, it was a Federal city with nobody 
who was a mayor or city council to even respond to the Federal 
Government, we were just used as a FUD site, as if we were 
someways way out in the desert.
    The community has been very cooperative because the Corps 
has worked closely with my office and with the community. 
Army--I am sorry, Colonel Anderson, the commander of this 
district, has indicated to me that whatever happens to your 
funds, the money for the clean-up will be there for Spring 
Valley; that it is a top, top priority because of the nature 
and the circumstances. And I would like to have that assurance 
from you as well.
    General Van Antwerp. Congresswoman, you have my assurance. 
I have spoken to Colonel Dave Anderson, our commander of the 
Baltimore district. I have been to the site myself and seen the 
great pains being taken to do this right and am aware of the 
public meetings and things to go to try and keep the community 
informed. It is really tough when this is in your backyard. So 
you have my commitment.
    Ms. Norton. I so appreciate that. And I very much 
appreciate that you are going to the site. I am going to the 
site in a few weeks to see the place where they will destroy 
the munitions, and appreciate the transparency that we now have 
that you worked with us to achieve. I also appreciate that, as 
I understand it now, the money that the District put in for the 
Potomac levy having nothing to do or very little to do with the 
District of Columbia, but with the required levy covering 
mostly with the Mall, Federal Triangle and other Federal 
properties. That full funding will be available to complete 
that work, is that true, sir?
    General Van Antwerp. Ma'am, the answer to that is yes.
    Ms. Norton. Thank you. That is all I need to know on that 
one. Yes is the best answer before this Committee.
    Finally, I had the bill that passed in 2007, the Anacostia 
Watershed Restoration Initiative. The Corps has been working on 
the Anacostia River long before I came to Congress, and almost 
everything that is done on it has been because the Corps was 
working on what we call the forgotten river, unlike the 
Potomac. Of course, it extends well beyond the District, but we 
are the bottom of it and get all the worst trash.
    My bill is the first comprehensive clean-up plan for the 
Anacostia River, once called the dirtiest river in America. You 
are to issue a 10-year comprehensive plan. We have already seen 
a first draft. In April, I will come to that kick-off of the 
plan. And I would like to inquire about what happens next. The 
Corps is essentially the coordinating mechanism. We do expect, 
of course, that, and there are other agencies involved, the EPA 
Administrator, Secretary of the Interior, and of course the 
mayors and the Governors of the affected jurisdictions here in 
Maryland, Virginia and the District of Columbia. Now, together 
they are supposed to develop a plan.
    Will the master plan have a road map for funding since 
nobody is going to do this for free, and we expect that the 
local jurisdictions will have to have a part in this ongoing 
work as well?
    General Van Antwerp. Yes, ma'am.
    The master plan will have not only the plan for what needs 
to be done but also a relative sketch of the timing and the 
costs associated with that. And then we will include whether 
there is additional authorization or appropriation required; 
what is the local cost share? All that will be in the 
comprehensive master plan.
    Ms. Norton. That could not be more important. We are not 
going to be able to hold everybody accountable, and they all 
are responsible unless we go forward and don't shirk at the 
cost so that everybody knows that they are in this together.
    Thank you very much for your work and thank you for 
appearing here today.
    Thank you Madam Chair.
    Ms. Johnson. Thank you very much.
    I think Mr. Kagen has asked to have more time for 
questions.
    Mr. Kagen. Thank you, Madam Chairwoman.
    Now off the subject of dredging, which should be an 
uplifting conversation, to the idea of directing some of the 
Great Lakes Initiative funds towards the PCB removal, both in 
Green Bay Harbor region, in the mouth of the Fox River, and 
also in the Fox River itself. And I would like to entertain 
your answers to that request.
    Mr. Perciasepe. The approach that we are taking with a 
large amount of the funds that were provided to EPA is actually 
to put out requests for proposals to deal with some of the 
problems. And it will be a process where we will review the 
proposals probably this April and make awards. I will look into 
whether or not--and I am pretty positive--I am positive that a 
restoration of harbors would be part of the eligibility there.
    Mr. Kagen. I appreciate the eligibility, and you are 
already aware of the complicated situation.
    Mr. Perciasepe. Certainly.
    Mr. Kagen. And the legal matters that may tie up the 
removal of PCB for quite some time. But I would like to get 
your commitment to the idea that both Senator Kohl and I have, 
and also Senator Feingold, that we would appreciate it if you 
would direct some of those revenues towards the immediate and 
urgent removal of the PCBs. And as a physician, I can just 
remind everybody that PCBs are a known and proven carcinogen, 
in particular for breast cancer. And if you look across the 
State of Wisconsin, the single hotspot for breast cancer 
incidence and mortality is the very hotspot where the PCBs are 
located in the Fox River.
    So I think for the health of our people and the health of 
our economy, I think you would agree with me how important it 
is to receive the appropriate remedies and funding for it as 
rapidly as possible.
    Lieutenant General, do you have any thoughts on this? Want 
to help the EPA out here?
    General Van Antwerp. We would be glad to give them strong 
support.
    Mr. Perciasepe. It is definitely a priority to clean up 
those hotspots throughout the Great Lakes. And your district is 
no different. We definitely want to move ahead there.
    Mr. Kagen. I look forward to our staff working with you to 
appropriate the necessary funding to get the job done, and 
thank you very much.
    I yield back my time.
    Ms. Johnson. Thank you very much.
    I have one final question, Mr. Perciasepe.
    In February of this year, the EPA Office of the Inspector 
General implemented one of the programs dealing with green 
reserves on the Recovery Act as they pertain to the clean 
water, the State's revolving fund. In that report the IG 
recommended that the agents develop a clear and comprehensive 
guide to States on how to determine the eligibility of green 
reserve projects. If you don't want to comment fully, we can 
get the response later. I know you are here for the budget. Can 
you tell me whether or not the EPA agrees with it, and if they 
have started to work on it?
    Mr. Perciasepe. Just to clarify, this was under the 
Recovery Act funds that went into the SRF. Well, it turns out 
that we recognize and didn't disagree with some of the issues 
that the Inspector General definitely identified. But as we got 
to the end of having all the funds get under contract by 
February 17th, all $6 billion that was provided to EPA through 
these SRF funds is now under contract. And we had a goal there 
established by Congress to achieve about a 20 percent usage of 
those funds in each State for green infrastructure. And it 
looks like all States are able to meet that goal, and some have 
gone as high as 25 percent. And there are a number of really 
good and innovative projects around the country that have been 
funded through that initiative that Congress put in the 
Recovery Act. So while we definitely did agree with some of the 
findings that the IG had we were obviously also on a fast track 
to get funds out. But as it turns out, at the end, we had a 
successful conclusion with a good result and more than 20 
percent of the funds going to green infrastructure nationally.
    Ms. Johnson. Thank you. Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    I don't have any more questions. We might have a couple 
that we might submit in writing if that is OK. We do appreciate 
you being here, and we do appreciate your hard work. I know 
that you all are underfunded and you have got lots of different 
things going on and are doing your very best to really deal 
with a lot of significant problems. And we have an oversight 
role, but we also have a role of trying to help you do your 
mission, and we do appreciate you very, very much. Thank you.
    Ms. Johnson. Thank you very much. And let me express my 
appreciation for you coming, for the work that you do, and the 
work that you have planned to do. Thank you.
    The Committee is now terminated.
    [Whereupon, at 12:15 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5275.019
    
    [GRAPHIC] [TIFF OMITTED] T5275.020
    
    [GRAPHIC] [TIFF OMITTED] T5275.021
    
    [GRAPHIC] [TIFF OMITTED] T5275.022
    
    [GRAPHIC] [TIFF OMITTED] T5275.023
    
    [GRAPHIC] [TIFF OMITTED] T5275.024
    
    [GRAPHIC] [TIFF OMITTED] T5275.025
    
    [GRAPHIC] [TIFF OMITTED] T5275.026
    
    [GRAPHIC] [TIFF OMITTED] T5275.027
    
    [GRAPHIC] [TIFF OMITTED] T5275.028
    
    [GRAPHIC] [TIFF OMITTED] T5275.029
    
    [GRAPHIC] [TIFF OMITTED] T5275.030
    
    [GRAPHIC] [TIFF OMITTED] T5275.031
    
    [GRAPHIC] [TIFF OMITTED] T5275.032
    
    [GRAPHIC] [TIFF OMITTED] T5275.033
    
    [GRAPHIC] [TIFF OMITTED] T5275.034
    
    [GRAPHIC] [TIFF OMITTED] T5275.035
    
    [GRAPHIC] [TIFF OMITTED] T5275.036
    
    [GRAPHIC] [TIFF OMITTED] T5275.037
    
    [GRAPHIC] [TIFF OMITTED] T5275.038
    
    [GRAPHIC] [TIFF OMITTED] T5275.039
    
    [GRAPHIC] [TIFF OMITTED] T5275.040
    
    [GRAPHIC] [TIFF OMITTED] T5275.041
    
    [GRAPHIC] [TIFF OMITTED] T5275.042
    
    [GRAPHIC] [TIFF OMITTED] T5275.043
    
    [GRAPHIC] [TIFF OMITTED] T5275.044
    
    [GRAPHIC] [TIFF OMITTED] T5275.045
    
    [GRAPHIC] [TIFF OMITTED] T5275.046
    
    [GRAPHIC] [TIFF OMITTED] T5275.047
    
    [GRAPHIC] [TIFF OMITTED] T5275.048
    
    [GRAPHIC] [TIFF OMITTED] T5275.049
    
    [GRAPHIC] [TIFF OMITTED] T5275.050
    
    [GRAPHIC] [TIFF OMITTED] T5275.051
    
    [GRAPHIC] [TIFF OMITTED] T5275.052
    
    [GRAPHIC] [TIFF OMITTED] T5275.053
    
    [GRAPHIC] [TIFF OMITTED] T5275.054
    
    [GRAPHIC] [TIFF OMITTED] T5275.055
    
    [GRAPHIC] [TIFF OMITTED] T5275.056
    
    [GRAPHIC] [TIFF OMITTED] T5275.057
    
    [GRAPHIC] [TIFF OMITTED] T5275.058
    
    [GRAPHIC] [TIFF OMITTED] T5275.059
    
    [GRAPHIC] [TIFF OMITTED] T5275.060
    
    [GRAPHIC] [TIFF OMITTED] T5275.061
    
    [GRAPHIC] [TIFF OMITTED] T5275.062
    
    [GRAPHIC] [TIFF OMITTED] T5275.063
    
    [GRAPHIC] [TIFF OMITTED] T5275.064
    
    [GRAPHIC] [TIFF OMITTED] T5275.065
    
    [GRAPHIC] [TIFF OMITTED] T5275.066
    
    [GRAPHIC] [TIFF OMITTED] T5275.067
    
    [GRAPHIC] [TIFF OMITTED] T5275.068
    
    [GRAPHIC] [TIFF OMITTED] T5275.069
    
    [GRAPHIC] [TIFF OMITTED] T5275.070
    
    [GRAPHIC] [TIFF OMITTED] T5275.071
    
    [GRAPHIC] [TIFF OMITTED] T5275.072
    
    [GRAPHIC] [TIFF OMITTED] T5275.073
    
    [GRAPHIC] [TIFF OMITTED] T5275.074
    
    [GRAPHIC] [TIFF OMITTED] T5275.075
    
    [GRAPHIC] [TIFF OMITTED] T5275.076
    
    [GRAPHIC] [TIFF OMITTED] T5275.077
    
    [GRAPHIC] [TIFF OMITTED] T5275.078
    
    [GRAPHIC] [TIFF OMITTED] T5275.079
    
    [GRAPHIC] [TIFF OMITTED] T5275.080
    
    [GRAPHIC] [TIFF OMITTED] T5275.081
    
    [GRAPHIC] [TIFF OMITTED] T5275.082
    
    [GRAPHIC] [TIFF OMITTED] T5275.083
    
    [GRAPHIC] [TIFF OMITTED] T5275.084
    
    [GRAPHIC] [TIFF OMITTED] T5275.085
    
    [GRAPHIC] [TIFF OMITTED] T5275.086
    
    [GRAPHIC] [TIFF OMITTED] T5275.087
    
    [GRAPHIC] [TIFF OMITTED] T5275.088
    
    [GRAPHIC] [TIFF OMITTED] T5275.089
    
    [GRAPHIC] [TIFF OMITTED] T5275.090
    
    [GRAPHIC] [TIFF OMITTED] T5275.091
    
    [GRAPHIC] [TIFF OMITTED] T5275.092
    
    [GRAPHIC] [TIFF OMITTED] T5275.093
    
    [GRAPHIC] [TIFF OMITTED] T5275.094
    
    [GRAPHIC] [TIFF OMITTED] T5275.095
    
    [GRAPHIC] [TIFF OMITTED] T5275.096
    
    [GRAPHIC] [TIFF OMITTED] T5275.097
    
    [GRAPHIC] [TIFF OMITTED] T5275.098
    
    [GRAPHIC] [TIFF OMITTED] T5275.099
    
    [GRAPHIC] [TIFF OMITTED] T5275.100
    
    [GRAPHIC] [TIFF OMITTED] T5275.101
    
    [GRAPHIC] [TIFF OMITTED] T5275.102
    
    [GRAPHIC] [TIFF OMITTED] T5275.103
    
    [GRAPHIC] [TIFF OMITTED] T5275.104
    
    [GRAPHIC] [TIFF OMITTED] T5275.105
    
    [GRAPHIC] [TIFF OMITTED] T5275.106
    
    [GRAPHIC] [TIFF OMITTED] T5275.107
    
    [GRAPHIC] [TIFF OMITTED] T5275.108
    
    [GRAPHIC] [TIFF OMITTED] T5275.109
    
    [GRAPHIC] [TIFF OMITTED] T5275.110
    
    [GRAPHIC] [TIFF OMITTED] T5275.111
    
    [GRAPHIC] [TIFF OMITTED] T5275.112
    
    [GRAPHIC] [TIFF OMITTED] T5275.113
    
    [GRAPHIC] [TIFF OMITTED] T5275.114
    
    [GRAPHIC] [TIFF OMITTED] T5275.115
    
    [GRAPHIC] [TIFF OMITTED] T5275.116
    
    [GRAPHIC] [TIFF OMITTED] T5275.117
    
    [GRAPHIC] [TIFF OMITTED] T5275.118
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
